HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of Substance Abuse and Mental Health Services Administrations Award
Process for a Contract With The Advertising Council, Inc.," (A-03-06-00538)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency
Response to Hurricanes Katrina and Rita:  Audit of Substance Abuse and Mental
Health Services Administrations Award Process for a Contract With The
Advertising Council, Inc.," (A-03-06-00538)
May 31, 2007
Complete
Text of Report is available in PDF format (86 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit is one of several reviews of procurements by
the Substance Abuse and Mental Health Services Administration (SAMHSA) and other components of the Department of Health and Human Services (HHS)
in response to Hurricanes Katrina and Rita in 2005.
The Federal Acquisition
Regulation (FAR) and the Health and Human Services Acquisition Regulation (HHSAR)
provide, among other things, that HHS agencies award each contract to a
responsible party and document compliance with requirements for full and open
competition and the determination that the price was fair and reasonable.
SAMHSA identified a need to motivate those affected by
Hurricanes Katrina and Rita to take care of their emotional well-being and to
inform them of available mental health services.  To meet this need, SAMHSA
modified an existing contract with The Advertising Council, Inc.
(the Council).  The existing contract obligated the Council to conduct
national public health campaigns designed to improve the general understanding
of mental illnesses and emotional disturbances.  The modifications
obligated the Council to furnish radio and television public service
announcements to reach adult victims of the hurricanes and first responders, as
well as parents and caregivers who could assess the emotional well-being of
children affected by the hurricanes.  Our objective was to determine
whether SAMHSA complied with FAR and HHSAR requirements during the award process
involving the Council.  SAMHSA complied with the requirements.